      United States Department of Agriculture




Office of Inspector General
Agricultural Marketing Service
Oversight of the Beef Promotion
and Research Board's Activities




                                       01099-0001-21
                                       January 2014
                                                  Agricultural Marketing Service
                                                Oversight of the Beef Promotion and
                                                    Research Board’s Activities

                                                     Audit Report 01099-0001-21
What Were OIG’s
Objectives
Our objectives were to
determine if AMS’ oversight
procedures were adequate to
ensure beef checkoff               OIG reviewed AMS’ oversight of the Beef
assessments were collected,
distributed, and expended in       Promotion and Research Program beef
accordance with the relevant       checkoff funds.
Act and Order, and to
determine if the relationships
between the beef board and         What OIG Found
other beef industry-related
organizations were compliant       The Office of Inspector General (OIG) determined that the
with the relevant Act and          Agricultural Marketing Service (AMS) needs to strengthen its
Order.                             procedures for providing oversight to the Beef Promotion and
                                   Research Program. We also found there was no cause to question,
What OIG Reviewed                  as it pertains to compliance with the Beef Research and Information
                                   Act, as amended (Act), and the Beef Promotion and Research Order
OIG reviewed AMS’ and the          (Order), the contractual relationships between the Cattlemen’s Beef
beef board’s procedures            Promotion and Research Board (beef board) and other industry-
designed to monitor activities     related organizations, including the National Cattlemen’s Beef
related to the beef checkoff       Association (NCBA).
program. OIG also examined
the internal controls related to   Overall, we concluded that AMS’ oversight as an internal control
beef checkoff fund                 function needs improvement. In our view, this resulted in agency
transactions.                      officials having reduced assurance that beef checkoff funds were
                                   collected, distributed, and expended in accordance with the Act and
What OIG Recommends                the Order. We found that AMS had not conducted periodic
                                   management reviews of the beef board, and the agency’s procedures
AMS needs to develop and
                                   for conducting these reviews could be improved. For example,
implement oversight
                                   AMS had not identified weaknesses in the beef board’s internal
procedures specific to the beef
                                   controls over project implementation costs. Sensitivity to these
board and perform
                                   controls is important because the costs are incurred by industry-
management reviews of the
                                   governed organizations the beef board is required to use. Without
beef checkoff program. OIG
                                   AMS’ independent oversight, it may not be clear to beef producers,
also recommends that the beef
                                   importers, and the public whether beef checkoff funds are collected,
board require detailed
                                   distributed, and expended in accordance with the Act and the Order.
estimates of project
implementation costs.              Our audit also addressed three specific allegations directed towards
                                   the beef board and NCBA. Overall, we concluded that the beef
                                   board, NCBA, and AMS, as applicable, took appropriate action
                                   regarding the matters, or that there was no impropriety related to
                                   the allegation. AMS concurred with our two recommendations.
                           United States Department of Agriculture
                                   Office of Inspector General
                                    Washington, D.C. 20250


DATE:          January 28, 2014

AUDIT
NUMBER:        01099-0001-21

TO:            Anne L. Alonzo
               Administrator
               Agricultural Marketing Service

ATTN:          Frank Woods
               Chief, Internal Audits
               Agricultural Marketing Service

FROM:          Gil H. Harden
               Assistant Inspector General for Audit

SUBJECT:       Agricultural Marketing Service Oversight of the Beef Promotion and Research
               Board's Activities


This report presents the results of the subject audit. Your written response to the official draft
report, dated March 12, 2013, is included in its entirety at the end of this report. Excerpts from
your response and the Office of Inspector General’s position are incorporated into the relevant
sections of the report. Based on your responses to the official draft, we accept management
decision on all recommendations, and no further response to this office is necessary.

In April 2013, we received a complaint that questioned the quality of the report we issued on
March 29, 2013. We processed the complaint under the guidelines issued pursuant to the Data
Quality Act (Section 515 of Public Law 106-554). As explained in the Scope and Methodology
section of this report, OIG found that certain aspects of our quality control system were not fully
completed. Consequently, we re-engaged with AMS and conducted additional audit and quality
control procedures from July through September 2013, to assess the finding and recommendations
in the March 29, 2013, report. We have revised the report based on information resulting from the
quality control procedures and the re-engagement. Due to the re-engagement, AMS informed us
that the corrective action implementation dates have been revised from October 31, 2013, to
March 31, 2014.

Please follow your agency’s internal procedures in forwarding documentation for final
action to the Office of the Chief Financial Officer. In accordance with Departmental
Regulation 1720-1, final action needs to be taken within 1 year of each management decision
to prevent being listed in the Department’s annual Agency Financial Report.
Anne L. Alonzo                                                                                   2


We appreciate the courtesies and cooperation extended to us by members of your staff during
our audit fieldwork and subsequent discussions. This report contains publically available
information and will be posted in its entirety to our website (http://www.usda.gov/oig) in the
near future.
Table of Contents

Background and Objectives ................................................................................... 1
Section 1: AMS Should Strengthen Oversight Controls .................................... 6
Finding 1: AMS Should Strengthen Oversight Controls ................................... 6
         Recommendation 1 ........................................................................................9
         Recommendation 2 ........................................................................................9
Scope and Methodology ........................................................................................ 10
Abbreviations ........................................................................................................ 13
Exhibit A: Summary of Allegations .................................................................... 14
Agency's Response ................................................................................................ 17
Background and Objectives 

Background
The Beef Research and Information Act, as amended (Act), and the subsequent Beef Promotion
and Research Order (Order) established and structured the Cattlemen’s Beef Promotion and
Research Board (beef board) to carry out a coordinated program of generic beef promotion and
research.1 The Beef Promotion and Research Program (beef checkoff program) aids in
advancing the commodity as a whole. The program was designed to strengthen the beef
industry’s position in the marketplace, as well as to maintain and expand domestic and foreign
beef markets. The “Beef, It’s What’s for Dinner” advertising campaign is an example of a
project that the beef board determines it will carry out each year, and then contracts with other
organizations to implement. The U.S. Department of Agriculture (USDA) provides oversight to
the program through its component agency, the Agricultural Marketing Service (AMS).2

AMS provides oversight for 19 promotion and research boards’ domestic activities, while the
Foreign Agricultural Service, another agency within USDA, is responsible for oversight of
international activities. Among promotion and research boards, the beef board has the lowest
level of administrative expenses allowed—5 percent.3 The Act4 and Order5 specify the beef
board’s organizational and funding structure. Further, for certain activities, the beef board was
required to contract with approved, industry-related organizations that were in existence when
the industry voted to approve the program in 1988.6 Additionally, half of the Beef Promotion
Operating Committee (BPOC) must consist of individuals from the Federation of State Beef
Councils (federation). The federation predated the authorization of the beef board in 1988, and
merged into the National Cattlemen’s Beef Association (NCBA) in 1996. The NCBA was the
successor organization to the National Cattlemen’s Association, which formed in 1951. AMS’
primary oversight objective is to ensure that promotion and research boards, such as the beef
board, use funds in accordance with requirements.



1
  The Act, 7 U.S.C. §§ 2901-2911, authorized the beef industry to establish a national checkoff program if
producers and importers approved the program through referendum. Beef producers and importers voted to
approve the program in 1988. The Order and related regulations, 7 C.F.R. §§ 1260.101 through 1260.640, further
clarified the duties and powers of the beef board, and assigned USDA responsibility to ensure provisions of the
Order are carried out. The Order also defined and provided general procedures for budget approval, contractor
approval and compliance, and other administrative procedures and requirements.
2
  The Secretary of Agriculture delegated to AMS the authority to oversee the various commodity marketing boards
within USDA, including the beef board. See 7 C.F.R. § 2.22(a)(1)(viii)(X).
3
  The laws authorizing other commodity boards allow administrative expenses of, for instance, 15 percent of
assessments and other income.
4
  7 U.S.C. § 2904.
5
  7 C.F.R. §§ 1260.141 - 1260.151, 1260.172.
6
  Specifically, except for producer communications and program evaluation, the beef board must work with
qualified contracting organizations (i.e. established, industry-governed organizations) to carry out programs of
promotion, research, consumer information, industry information, and foreign marketing. To qualify during our
audit period, contracting organizations were required to have been in existence before the enactment of the Act. On
August 31, 2012, a Beef Promotion and Research Amendment to the Order lifted the requirement that qualified
contracting organizations must have existed at that time. See 7 C.F.R. §§ 1260.113 and 1260.168.

                                                                         AUDIT REPORT 01099-0001-21               1
The Beef Checkoff Program and Its Operations

The Beef Promotion and Research Program is also known as the beef checkoff program because
the beef industry funds the program with “checkoff” dollars. The beef checkoff program
collects a $1 assessment for each head of domestic cattle sold, as well as assessments for
imported cattle, beef, and beef products. Qualified State beef councils (QSBC) collect the
domestic assessments and are responsible for forwarding half of the funds each month to the
beef board, which manages the national program.7 Beef producers and importers paid
approximately $81 million in checkoff assessments each year during fiscal years 2008 through
2010. Assessments are used to support marketing promotions, research, consumer and industry
information projects, and program administration activities that benefit the beef industry.
However, beef checkoff funds may not be used for activities such as lobbying, as both the Act8
and the Order9 specifically prohibit the use of checkoff funds for “influencing government
action or policy.”

Each year, the beef board brings a total of approximately $35.5 million in producer assessments
and $6.7 million in importer assessments forwarded from QSBCs and the U.S. Customs and
Border Protection Service, respectively, to the national program. The Secretary of Agriculture
must certify the organizations, which consist of State cattle associations or general farm
organizations comprised of a majority of cattle producers, as well as entities that promote the
economic welfare of cattle producers. The certified State organizations and importer groups
nominate individuals to sit on the beef board. The Secretary of Agriculture is responsible for
appointing individuals based on the nominations. The beef board had 106 members during the
scope of our audit (fiscal years 2008-2010). In accordance with the Order,10 the beef board
selected 10 of its members to serve on the 20 member BPOC. The BPOC’s other 10 members
are individuals from the federation, which provides approximately $10.6 million to the national
program each year. The BPOC meets about four times a year. It receives an approved budget
from the board that allocates funds among program areas. The BPOC may approve or amend
activities within a project, as well as the cost of the program submitted by a potential contractor.
As provided in the Act11 and Order,12 the BPOC, subject to USDA approval, can enter into
contracts or agreements to carry out program activities.

The federation merged into NCBA in 1996. NCBA has had annual contracts with the beef
board for each of the last 26 years, and is the beef board’s primary contractor. Within NCBA,
the federation division, staffed with microbiologists, nutritionists, chefs, economists, marketing
specialists, and food technologists, carries out a majority of the approved programs. The
federation division receives 98.6 percent of its revenue from beef checkoff contributions. The
remaining federation division revenue is from non-checkoff sources such as packer/processor


7
  QSBCs are beef promotion entities, authorized by State statute, that receive voluntary assessments or
contributions; conduct beef promotion, research, and consumer and industry information programs; and are certified
by the beef board. Currently, there are 45 individual QSBCs.
8
  7 U.S.C. § 2904(10).
9
  7 C.F.R. § 1260.169(e).
10
   7 C.F.R. § 1260.150(d).
11
   7 U.S.C. § 2904(6).
12
   7 C.F.R. § 1260.168(f).

2     AUDIT REPORT 01099-0001-21
investments, sponsorships and meetings, sales of materials, and interest. The federation
division revenue represents 82.3 percent of NCBA’s total funding.

In addition to the federation division, NCBA has a policy division. The policy division provides
17.7 percent of NCBA’s funding through contributions received from members, affiliates,
sponsorships, and others.13 Policy division funding is designated for NCBA’s political
activities, which may include lobbying. NCBA states that it manages the separation of funds
within its two divisions using accounting codes, separate bank accounts, policies, and
responsible officials.

Other industry related organizations that contract with the beef board include the United States
Meat Export Federation (USMEF), the American National CattleWomen, Inc. (ANCW), and
the Meat Import Council of America (MICA).

AMS’ Oversight of Commodity Boards and Recent Reviews

AMS provides oversight and guidance to promotion and research boards to ensure that
checkoff funds are used in accordance with their authorizing Acts and other authorities. The
executive leaders of each board are responsible for overseeing the financial management of
checkoff funds. AMS also reviews annual financial audits that certified public accountants
perform.

AMS apportions its oversight responsibilities to four program areas. Each program area
is overseen by a functional committee, which include:

     ·   Cotton and Tobacco
     ·   Dairy
     ·   Fruit and Vegetable
     ·   Livestock, Poultry, and Seed

AMS assigned responsibility for beef board oversight to the Livestock, Poultry, and
Seed Program. In addition, upon request by the Livestock, Poultry, and Seed Program,
AMS’ Compliance and Analysis Program assists with performing management reviews of
the boards.

In November 2010, AMS updated its guidance document regarding oversight reviews of
promotion and research boards and general prohibitions against using checkoff funds for
expenses such as spousal travel, open bars, and payments for non-checkoff work. OIG had
evaluated previous internal controls AMS established to oversee the promotion and research
boards’ activities in a report, issued in March 2012.14 As part of its response to the audit, AMS



13
   NCBA’s financial statements for fiscal years 2008 through 2010 list the revenue sources for its policy division as:
packer/processor investments, sale of NCBA materials, political education fund contributions, and interest.
14
   Agricultural Marketing Service’s Oversight of Federally Authorized Research and Promotion Board Activities
(01099-0032-Hy, March 12, 2012).

                                                                           AUDIT REPORT 01099-0001-21               3
developed its promotion and research board oversight procedures and guidance for conducting
periodic internal reviews of its program area operations.

In 2010, under its own authority, the beef board commissioned an independent accounting firm to
perform an attestation engagement that included a review of expenses NCBA submitted to the
beef board for reimbursement between fiscal years 2008 and 2010.15 The engagement disclosed
findings related to contractor-submitted expenses, some of which were unrelated to checkoff
activity. Following the engagement, NCBA officials admitted that they had mistakenly coded
and submitted improper expenses to be reimbursed by the beef checkoff fund. Board officials
met with NCBA officials to review the engagement findings and develop corrective actions,
which resulted in NCBA reimbursing $216,944 to the beef checkoff program. AMS officials
reviewed the findings of the engagement as part of their oversight role and, in September 2010,
concurred with the beef board’s recommended corrective actions. NCBA also hired a
compliance manager to oversee and manage compliance with checkoff requirements and respond
to questions from beef board officials regarding checkoff fund expenses.

During the course of our audit, we reviewed three complaints directed towards the beef board
and NCBA. The complaints alleged the misuse of beef checkoff funds and the misuse of the
beef checkoff logo. We examined accounting and management records, where appropriate, and
discussed the complaints with applicable parties, including AMS officials. Overall, we
concluded that the beef board, NCBA, and AMS, as applicable, took appropriate action
regarding the matters, or that there was no impropriety related to the allegation. We
evaluated the following alleged activities or decisions:

            ·    Whether the beef board had used checkoff funds to pay for a division of NCBA to
                 attend USDA Grain Inspection and Packers Stockyard Administration (GIPSA)
                 rulemaking information sessions;
            ·    The propriety of the beef board’s use of checkoff funds to gain membership in the
                 U.S. Ranchers and Farmers Alliance; and
            ·    A cattle association’s use of the beef checkoff logo in a beef industry trade paper
                 editorial, relative to a proposed GIPSA rule.

See Exhibit A for more information concerning these allegations.

Objectives
Our objective was to determine if AMS’ oversight procedures were adequate to ensure that beef
checkoff assessments were collected, distributed, and expended in accordance with the Act and
the Order. Also, our objective was to determine if the relationship between the beef board and
the NCBA, as well as other beef industry-related organizations, complied with the Act and
Order.

We reviewed the Act and Order to identify and evaluate provisions related to the relationship
between the beef board and the various beef industry organizations it contracted with, including

15
     This engagement was initiated by the beef board and was not part of the required annual audit.

4        AUDIT REPORT 01099-0001-21
the NCBA. The Act and the Order did not cite any specific industry-governed organizations
and did not provide specific guidance on permissible relationships between the parties. One
provision of the Act states that the BPOC shall enter into contracts or agreements for
implementing and carrying out the activities authorized by this Act with established national
nonprofit industry-governed organizations to implement programs of promotion, research,
consumer information, and industry information.16 A similar provision in the Order states that
the BPOC shall contract with established national nonprofit industry-governed organizations to
implement programs of promotion, research, consumer information and industry information.17
Based on our review of relevant provisions of the Act and the Order, and our review of the
contractual association between the beef board and the NCBA, as well as other industry-related
organizations, we found no cause to question the current relationship between the parties as it
pertains to compliance with the Act and the Order.




16
     7 U.S.C. § 2904(6).
17
     7 C.F.R. § 1260.168(f).

                                                             AUDIT REPORT 01099-0001-21           5
Section 1:  AMS Should Strengthen Oversight Controls 
Finding 1: AMS Should Strengthen Oversight Controls
We found that AMS’ oversight of beef checkoff funds should be strengthened to ensure the
expenditure of funds complies with the Act and the Order. For example, AMS had not
identified deficiencies in the beef board’s internal controls over project implementation costs.
This occurred due to inadequate AMS procedures for performing management reviews of beef
board operations and AMS officials’ decision to perform these reviews of the beef board only if
a complaint or concern arose. Sensitivity to these internal controls is important because the
costs are incurred by industry-governed organizations with which the beef board is required to
contract. Without AMS’ independent oversight, it may not be clear to beef producers and the
public whether beef checkoff funds are collected, distributed,18 and expended in accordance
with the Act19 and Order.20

AMS is responsible for overseeing the implementation, administration, and operation of
commodity promotion and research boards.21 AMS responsibilities include performing
management reviews and other administrative procedures and requirements.22 Beef
board guidelines require that all cost reimbursement payments to contractors be
reasonable and necessary to achieve the objectives of the specific authorization request
or contract.

In addition to reviewing AMS’ oversight policy and procedures, we reviewed internal controls
over the collection, distribution, and expenditure of beef checkoff funds by QSBCs and the
beef board. At the four QSBCs visited, we reviewed internal controls over the collection and
distribution of checkoff funds. At the beef board, we selected a random sample of 983
transactions from a total of more than 19,000 beef checkoff fund transactions for fiscal years
2008 through 2010. Our review of internal controls over the collection, distribution, and
expenditure of checkoff funds disclosed that the beef board had not required detailed cost
estimates from contractors prior to approving project implementation costs. This internal
control deficiency was limited to the 983 transactions in our review, and nothing else came to
our attention regarding internal controls over the collection, distribution, and expenditure of
beef check-off funds.

Overall, we concluded that AMS’ oversight as an internal control function needs improvement.
In our view, this resulted in agency officials having reduced assurance that beef checkoff funds
were collected, distributed, and expended in accordance with the Act and Order. We found
that AMS had not previously identified deficiencies in the beef board’s internal controls. AMS
officials stated that their daily monitoring of contracts, budget documents, and promotional

18
   For purposes of this report, distributed refers to the remittance of beef checkoff funds as described in the beef
board’s policy manual.
19
   7 U.S.C. §§ 2904 and 2905.
20
   7 C.F.R. Part 1260.
21
    AMS is delegated the authority by the Secretary of Agriculture to oversee the various commodity marketing
boards within USDA. 7 C.F.R. § 2.22(a)(1)(viii).
22
   Guidelines for AMS Oversight of Commodity Research and Promotion Programs (May 2004), page 3.

6      AUDIT REPORT 01099-0001-21
material, among other monitoring procedures, was sufficient oversight. However, AMS had
not performed management reviews of the beef board. One AMS official informed us that
agency officials interpreted the guidelines that were in effect during our audit to mean, conduct
a review when a complaint or issue arose. AMS oversight guidelines state that AMS will
conduct periodic management reviews.23 AMS officials stated that the agency plans to conduct
a management review of the beef checkoff program in the near future.

We reviewed the standard operating procedures,24 which clarified the oversight guidelines, used
by AMS personnel to conduct management reviews. We found that AMS has not developed its
standard operating procedures for management reviews to adequately make determinations that
beef checkoff funds were collected, distributed, and expended in accordance with the Act and
Order, and to ensure transparency. Our analysis of AMS’ oversight guidelines for conducting
management reviews disclosed that the guidance in effect during our audit does not provide
adequately specific procedures for reviewing records to ensure they support contract compliance
in terms of the Act and Order. The guidance instructs the reviewer to pull a representative
sample of contracts and provides a checklist of questions for reviewers to use during reviews,
but does not include specific criteria for reviewing the samples. Further, AMS had not proposed
guidance to assist its staff in reviewing assessment collections, the distribution of assessments to
the national program, and QSBC reviews.

As part of our work, we learned that the relationship between the beef board and its contractors
is complex. Per the Act25 and Order,26 the beef board must contract with approved, industry-
related organizations only. Further, during our audit, the beef board was required to contract
with organizations that were in existence when the Act was enacted.27 Additionally, the Act and
Order require that half of the BPOC members be individuals from an organization that has
become a component of the board’s primary contractor, NCBA.28 This committee is responsible
for voting to approve contracts. Given these complicated and mandated relationships among the
beef board and its contractors, it is crucial that AMS ensures its independent reviews of the
board are designed to provide comprehensive assurance of contract compliance.

AMS’ current guidance states that reviews will cover contract compliance; however, it does not
provide detailed procedures for doing so. AMS is currently in the process of updating its
procedures for periodic commodity board management reviews to clarify AMS’ role and
responsibilities, and to provide additional details about the process. AMS officials stated that
the agency will issue new standard operating procedures following its review of the findings


23
   Guidelines for AMS Oversight of Commodity Research and Promotion Programs (May 2004), page 9. AMS
clarified its guidelines for oversight of commodity boards in Standard Operating Procedures 5 subsequent to the OIG
audit report, Oversight of Federally Authorized Research and Promotion Board Activities (01099-0032-Hy, March
12, 2012).
24
   AMS Standard Operating Procedures 5.
25
   7 U.S.C. § 2904(6).
26
   7 C.F.R. § 1260.168(f).
27
   To qualify to contract with the beef board during our audit period, contracting organizations were required to have
been in existence when the Act took effect. On August 31, 2012, a Beef Promotion and Research Amendment to the
Order lifted the requirement that qualified organizations were required to have existed at that time.
28
   7 U.S.C. § 2904(4)(A) and 7 C.F.R. §1260.112.

                                                                          AUDIT REPORT 01099-0001-21               7
and recommendations of our audit, and that they will use the new procedures to perform the
initial management review after adoption.

Without reviews and well-developed procedures to review contract compliance with the Act
and Order, AMS may not identify whether, for example, the beef board’s documentation
standards are adequate. We noted during our audit that AMS did not identify whether the beef
board received sufficient information about project implementation costs before it agreed to
pay such costs. Specifically, the beef board did not ensure it received detailed information
about, for instance, the hourly rate or estimated number of hours that contractors would charge
to perform various administrative services to implement a given project. Frequently, with the
type of contract that the beef board uses, contractors provide a detailed cost schedule up front,
such as the hourly rates at which the contractor would invoice the beef board for personnel
hours.29 However, the beef board received details only after costs were incurred, through the
invoice from the contractor. Thus, reviewers were unable to confirm if estimated rates were
reasonable and expenses were appropriate before the board authorized payment. Further,
reviewers could not compare detailed estimates to detailed actual expenses.

For example, the beef board authorized approximately $280,000 to be paid to a contractor to
implement the program’s advertising strategy for fiscal year 2010. The beef board based this
authorization on a document that listed a manager who would implement the strategy and a
completion date, but that did not list hourly rates at which the contractor would bill the beef
board for the performance and supervision of the work. The document also did not list the
estimated number of hours the program manager and any other personnel would spend to
implement the project.

The beef board has begun to develop a revised request form to ensure it receives such details
before the beef board authorizes its contractors. AMS officials stated that they have reviewed
the form. By recommending that the beef board ensures these details are documented, AMS
can help to increase transparency over project implementation costs the beef board pays with
beef checkoff funds.

AMS’ oversight plays a significant role in the beef checkoff program environment and provides
assurance to the beef industry and the public regarding the use of assessed funds. AMS can
take additional steps to enhance assurance in the program by strengthening transparency over
the use of funds overall.




29
  Through agreements known as cost-reimbursable contracts, the BPOC authorizes and the beef board agrees to pay
checkoff funds to contractors for allowable costs the contractor incurred in order to administer and implement beef
board projects. Once specified project milestones have been met, a cost-reimbursement agreement allows a
contractor to submit all costs, whether direct or indirect, to the beef board and be reimbursed by the beef board.

8     AUDIT REPORT 01099-0001-21
Recommendation 1

Develop and implement standard operating procedures for management reviews, specific to the
beef board, that include procedures for reviewing the overall process of collecting, distributing,
and expending assessment funds, and for reviews of the entire beef board contractor expenditure
verification process. Then, perform a management review of the beef checkoff program.

Agency Response
AMS concurs with this recommendation and will implement supplemental management review
procedures for the beef board to augment the current standard operating procedure (SOP)
covering management reviews. While the SOPs are designed to promote consistency across all
of the research and promotion programs, they also allow flexibility for the unique structure of
each board and give latitude for customization when appropriate. AMS will develop this
supplemental management review procedure by June 2013. Finally, AMS agrees to conduct a
management review of the beef board by October 31, 2013.

OIG Position
We accept management decision for this recommendation.

Recommendation 2

Recommend that the beef board require detailed estimates of project implementation costs, such
as salaries, benefits, all applied overhead expenses, and other expenses, before it authorizes the
projects.

Agency Response
AMS concurs with this recommendation. The beef board is in the process of revising the form
contractors use to request funds to include additional information as recommended. The beef
board’s next fiscal year begins September 30, and contractors typically submit authorization
requests to the beef board by July. AMS will ensure that the beef board implements this change
prior to the BPOC meeting, which is scheduled for September 2013.

OIG Position
We accept management decision for this recommendation.




                                                              AUDIT REPORT 01099-0001-21          9
Scope and Methodology 
We performed our fieldwork at AMS’ Livestock, Poultry, and Seed branch office in
Washington, D.C.; beef board, NCBA, and ANCW offices, all located in Centennial, Colorado;
the USMEF office in Denver, Colorado; the MICA office in Reston, Virginia; and at four QSBC
offices in Kansas, Nebraska, Pennsylvania, and Texas. The beef board required contractors to
retain records for 3 years. Thus, since we began our audit in fiscal year 2011, the scope of our
audit was from fiscal years 2008 through 2010.

To accomplish our objectives, we reviewed relevant provisions of the Act and Order as described
in the points below, and performed the following steps:

     ·   Conducted field work that enabled us to gain an understanding of how the
         organizations were collecting, distributing, and expending beef checkoff assessment
         funds. Our review of internal controls over financial data was instrumental in
         determining whether these organizations were in compliance with the Act and Order.
     ·   Selected a random sample of 983 transactions from a total of 19,018 transactions
         from various databases pertaining to beef board checkoff funds received for fiscal
         years 2008, 2009, and 2010, involving the beef board and the following beef board
         contractors: NCBA, USMEF, and the ANCW. We selected this sample in order to
         examine internal controls over expenditures. The 983 sample transactions totaled
         about $19.2 million. The sample came from a universe of 19,018 transactions that
         totaled about $281.8 million. Our audit conclusions are based on and limited to the
         internal controls over the 983 transactions.
     ·   To determine if internal controls existed, and if they met the requirements of the Act
         and Order, we completed an overall assessment of established internal controls AMS
         Livestock, Poultry, and Seed program area officials used for oversight of the beef
         board.
     ·   Visited four QSBCs to gain an understanding of the State councils’
         involvement in the collection, distribution, and expenditure of beef checkoff
         assessments.
     ·   To determine each State’s assessment collection value, assessments paid to the beef
         board, contributions to the federation, and funding of State programs, we reviewed the
         financial statements of all 45 QSBCs and annual reports by independent public
         accountants for compliance with the Act and Order. In addition, we determined the
         total value of beef board-approved national programs and reviewed the federation’s
         use of and request for checkoff funding for national and non-national programs.
     ·   Interviewed beef board officials to evaluate processes used for the collection of
         assessments, oversight of contracted industry-governed organizations, and issuance
         of policies and guidance.
     ·   Reviewed the beef board’s methods for contract monitoring; communicating and
         handling deficiencies; handling requests, complaints and/or concerns; assessing internal
         controls; selection of BPOC members; and key official roles and responsibilities. We
         also reviewed the beef board’s debt management, budgets and budget amendments,
         financial statements, financial audits, administrative expenses, investments, travel
         expenses, direct and overhead costs, and USDA costs.

10       AUDIT REPORT 01099-0001-21
In April 2013, we received a complaint that questioned the quality of this report, which had
been issued and posted on our website. We processed the complaint under OIG Information
Quality Guidelines implementing the Data Quality Act (Section 515 of Public Law 106-554).
In order to accurately assess the quality, objectivity, utility, and integrity of the information
presented in our report, and to determine if modifications to the report were warranted, we
conducted a review of the audit engagement and report. As a result of this review, OIG
identified issues pertaining to the execution of the audit. For example, the audit team did not
perform all necessary procedures related to the statistical sampling plan.30 As a result, we could
not determine that all funds were collected, distributed, and expended in accordance with the
Act and the Order31. OIG also found that certain aspects of our quality control system were not
fully completed. For example, OIG procedures relative to our quality control system require
that a report be cross-referenced to sufficient, appropriate evidence. OIG’s practice is to then
subject all cross-referenced reports to a verification referencing review process. Due to an
oversight, OIG did not perform a referencing review on the final report before the March 29,
2013, issuance date; the previously approved draft versions of the report had been subject to our
referencing process. Consequently, we re-engaged with AMS and conducted additional audit
and quality control procedures from July through September 2013, to assess the finding and
recommendations in the March 29, 2013, report. As a result of these procedures, we reaffirmed
the finding and recommendations in the March 29, 2013, report. During the course of our
review, re-engagement, and conduct of additional procedures, we updated the hyperlink on our
webpage to inform the public that the report was subject to additional review. We also
removed the report from the website.

Under the re-engagement, the independent audit team reviewed 45 transactions representing
approximately $700,000 of expenditures randomly selected from the 983 transactions totaling
about $19.2 million selected for review during the audit. The results of the re-engagement were
limited to the internal controls related to those 45 transactions. However, the conclusions
reached by the re-engagement team on internal controls over expenditures as a result of the
review were consistent with those reported in Finding 1 of this report related to improving AMS’
oversight of beef board expenditures reimbursed to NCBA, USMEF, and the ANCW. We also
performed tests of internal controls over collections and distributions related to the
approximately $35.5 million in annual collections for fiscal years 2008 through 2010. We tested
internal controls at the QSBC’s in the same four States reviewed in the original audit. In those
States, we selected and reviewed 138 transactions, which included 47 collections, 28
distributions to the beef board, 46 distributions to States of Origin, and 17 voluntary distributions
to NCBA. Transactions were selected judgmentally based on factors such as the month in which
they occurred, the transaction volume, and geographic location of collection points.




30
   We removed Exhibit B (the original statistical sampling plan) from this report that had been in OIG audit report,
Agricultural Marketing Service Oversight of the Beef Research and Promotion Board’s Activities (01099-0001-21,
dated March 29, 2013).
31
   In the March 29, 2013, report previously posted on our website, OIG stated that we determined that all funds were
collected, distributed, and expended in accordance with the Act and Order.

                                                                       AUDIT REPORT 01099-0001-21               11
The internal quality control reviewers and the re-engagement audit team that performed the
Data Quality Act review recommended changes to the report. We revised the report based on
those recommendations and reposted the report to our website.

During the course of our audit, we did not verify information in any AMS electronic
information system and we make no representation regarding the adequacy of any agency
computer systems or the information generated from them.

We conducted our audit, including the additional review procedures, in accordance with
generally accepted government auditing standards. These standards require that we plan and
perform the audit to obtain sufficient and appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our objectives. We believe that the evidence
obtained provides a reasonable basis for our findings.




12     AUDIT REPORT 01099-0001-21
Abbreviations 
Act ........................Beef Research and Information Act, as amended
AMS .....................Agricultural Marketing Service
ANCW .................American National CattleWomen, Inc.
beef board.............Cattlemen’s Beef Promotion and Research Board
BPOC ...................Beef Promotion Operating Committee
GIPSA ..................Grain Inspection and Packers Stockyard Administration
MICA ...................Meat Import Council of America
NCBA ..................National Cattlemen’s Beef Association
OIG ......................Office of Inspector General
Order ....................Beef Promotion and Research Order
QSBC ...................Qualified State beef councils
USMEF ................U.S. Meat Export Federation




                                                             AUDIT REPORT 01099-0001-21   13
Exhibit A: Summary of Allegations 
Evaluation of Allegations

During the course of our audit, we reviewed three complaints directed towards the beef board
and NCBA. The complaints alleged the misuse of beef checkoff funds and the misuse of the
beef checkoff logo. We examined accounting and management records, where appropriate, and
discussed the complaints with applicable parties, including AMS officials. Overall, we
concluded that the beef board, NCBA, and AMS, as applicable, took appropriate action
regarding the matters, or that there was no impropriety related to the allegation.

The specific allegations, as well as the work we performed and the conclusions we reached,
were as follows:

×    NCBA Allegedly Charged Prohibited Expenses to the Checkoff Fund

     A beef industry organization alleged that NCBA improperly and unlawfully used checkoff
     funds totaling less than $400 to pay for a policy-related event. Beef board officials
     acknowledged that NCBA had submitted a claim for a policy-related event as alleged in
     the complaint. However, the officials stated they questioned the documentation supporting
     the claim and ultimately determined it to be ineligible for reimbursement. We examined
     the beef board’s accounting records for the time period of the claim. Our review found no
     evidence that the board had paid the expenses cited in the complaint. Thus, we could not
     corroborate the allegation.

×    The Board Allegedly Used Checkoff Funds to Become Affiliated with a Private Industry
     Association

     A beef industry organization alleged that the beef board improperly used checkoff funds to
     join the U.S. Farmers and Ranchers Alliance, a private industry association. We examined
     the beef board’s general ledger for fiscal years 2008 through 2010 in search of transactions
     with the U.S. Farmers and Ranchers Alliance, and for transactions that matched the
     amounts needed to join the organization ($5,000 to become an affiliate member and
     $50,000 to become a board member). We did not find any transactions with the U.S.
     Farmers and Ranchers Alliance, or transactions in the amounts needed to join the
     organization. Thus, we could not corroborate the allegation. Subsequently, we discussed
     the allegation with AMS officials. They informed us that they were aware of the
     allegation and had approved the beef board’s action to join the U.S. Farmers and Ranchers
     Alliance after consulting with the USDA Office of the General Counsel. Since AMS was
     aware of and had approved the action in its oversight role and function, we did not pursue
     the matter further.




14      AUDIT REPORT 01099-0001-21
·   Alleged Unauthorized Use of the Beef Checkoff Logo

    A beef industry organization alleged that a cattle association affiliated with NCBA
    submitted an article to a trade journal that opposed the proposed GIPSA rule and
    improperly included the official beef checkoff logo. The cattle association president that
    submitted the article stated that the submission he sent to the journal did not contain the
    checkoff logo. We interviewed the publisher of the trade journal, who confirmed that the
    cattle association did not include the checkoff program logo when it submitted the article.
    The publisher did acknowledge that the editor of the trade journal (who is no longer with
    the publication) had inserted the logo without the knowledge of the cattle association or
    the permission of the beef board. The publisher also stated that the article was removed
    from the website when the trade journal began receiving complaints about the use of the
    logo in the article. We confirmed that the trade journal had removed the article from its
    website.




                                                             AUDIT REPORT 01099-0001-21           15
16   AUDIT REPORT 01099-0001-21
Agency's Response 




                      USDA’S
                 AMS’ RESPONSE TO  
                  AUDIT REPORT




                             AUDIT REPORT 01099-0001-21   17
                                                              1400 Independence Avenue, SW.
                                                              Room 3071-S, STOP 0201
                                                              Washington, DC 20250-0201




DATE:         March 12, 2013

TO:           Gil H. Harden
              Assistant Inspector General for Audit
              Office of Inspector General

FROM:         David Shipman /s/
              Administrator
              Agricultural Marketing Service

SUBJECT:      AMS’ Response to OIG Audit #01099-001-21: “Oversight of the Beef Research
              and Promotion Board”


We have reviewed the subject audit report and agree with the recommendations. Our detailed
response, including actions to be taken to address the recommendations, is attached.

If you have any questions or need further information, please contact Frank Woods, Internal
Audits Branch Chief, at 202-720-8836.

Attachment
                AMS Response to Office of Inspector General (OIG) Audit:
          Beef Research and Promotion Activities AUDIT REPORT 01099-001-21


Finding 1: AMS Should Strengthen Oversight Controls

Recommendation 1
Develop and implement standard operating procedures for management reviews, specific to the
beef board, that include procedures for reviewing the overall process of collecting, distributing,
and expending of assessment funds, and for reviews of the entire beef board contractor
expenditure verification process. Then, perform a management review of the beef program.

Agency response: AMS concurs with this recommendation and will implement supplemental
management review procedures for the Beef Board to augment the current standard operating
procedure (SOP) covering management reviews. While the SOPs are designed to promote
consistency across all of the R&P programs, they also allow flexibility for the unique structure of
each board and give latitude for customization when appropriate. AMS will develop this
supplemental management review procedure by June 2013. Finally, AMS agrees to conduct a
management review of the Beef Board by October 31, 2013.

Recommendation 2
Recommend that the beef board require detailed estimates of project implementation costs, such
as salaries, benefits, all applied overhead expenses, and other expenses, before it authorizes the
projects.

Agency response: AMS concurs with this recommendation. The Beef Board is in the process of
revising the form contractors use to request funds to include additional information as
recommended. The Beef Board’s next fiscal year begins September 30, and contractors typically
submit authorization requests to the Beef Board by July. AMS will ensure that the Beef Board
implements this change prior to the Beef Promotion Operating Committee meeting, which is
scheduled for September 2013.
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste and Abuse
e-mail: USDA.HOTLINE@oig.usda.gov
phone: 800-424-9121
fax: 202-690-2474

Bribes or Gratuities
202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on
the basis of race, color, national origin, age, disability, and where applicable, sex (including gender identity
and expression), marital status, familial status, parental status, religion, sexual orientation, political beliefs,
genetic information, reprisal, or because all or part of an individual’s income is derived from any public
assistance program. (Not all prohibited bases apply to all programs.) Persons with disabilities who require
alternative means for communication of program information (Braille, large print, audiotape, etc.) should
contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD).

To file a complaint of discrimination, write to USDA, Assistant Secretary for Civil Rights, Office of the
Assistant Secretary for Civil Rights, 1400 Independence Avenue, S.W., Stop 9410, Washington, DC 20250­
9410, or call toll-free at (866) 632-9992 (English) or (800) 877-8339 (TDD) or (866) 377-8642 (English
Federal-relay) or (800) 845-6136 (Spanish Federal relay).USDA is an equal opportunity provider and employer.
